           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 THE SOCIAL SECURITY ADMINISTRATION’S
 GOVERNMENT PURCHASE CARD PROGRAM

      March 2010     A-13-09-29027




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                            SOCIAL SECURITY
MEMORANDUM

Date:      March 25, 2010                                                          Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Government Purchase Card Program
           (A-13-09-29027)


           OBJECTIVE

           Our objective was to determine whether the Social Security Administration's (SSA)
           oversight of its Government Purchase Card (PCard) Program was effective.

           BACKGROUND

           The Government PCard Program was created as a way for agencies to streamline the
           acquisition process and reduce paperwork and administrative costs for simplified
                        1
           acquisitions. SSA began participating in the Government PCard Program in 1988.

           The Department of Commerce initially implemented the Program and awarded a
           contract to U.S. Bank for 10 years. In 1998, the General Services Administration (GSA)
           awarded Master Contracts to five banks under its GSA SmartPay Program for another
           10 years. These Contracts require that each bank provide commercial electronic
           access products and services to all Federal agencies that issue them orders. In
           November 1998, SSA issued a task order to Citibank that covers SSA’s PCard
           Program. In 2007, GSA awarded three new Master Contracts under the SmartPay2
           Program. SSA issued a new task order to Citibank for the Agency’s PCard Program in
           May 2008.

           SSA reported PCard use increased from $47.3 million in Fiscal Year (FY) 1999 to
           $84.3 million in FY 2009 (see Chart 1). While the number of purchases has




           1
            A simplified acquisition follows a specific, streamlined methodology prescribed for making open market
           purchases of supplies or services that do not exceed a set threshold (currently $100,000).
Page 2 - The Commissioner


significantly increased, the ratio of purchase dollars to SSA administrative expenses
has remained about the same. 2 The number of cardholders ranged between 2,800 and
3,000 at any given time during these FYs.

                                     Chart 1: PCard Use
                                      FYs 1999 - 2009


    $90,000,000
    $80,000,000
    $70,000,000
    $60,000,000
    $50,000,000
    $40,000,000
    $30,000,000
    $20,000,000
    $10,000,000
              $0
                   1999 2000 2001 2002 2003 2004 2005 2006 2007 2008 2009



In March 2008, the Government Accountability Office (GAO) published a report,
Governmentwide Purchase Cards – Actions Needed to Strengthen Internal Controls to
Reduce Fraudulent, Improper, and Abusive Purchases (GAO-08-333). GAO found
internal control weaknesses that exposed the Government to fraud, waste, abuse, and
loss of assets. Agencies could not demonstrate that 48 percent of large purchases met
the standard of proper authorization and independent receipt and acceptance.
Breakdowns in internal controls, including authorization and independent receipt and
acceptance, resulted in numerous examples of fraudulent, improper, and abusive
purchase card use at various agencies reviewed. During its audit, GAO reviewed seven
SSA transactions and found no problems. Although GAO found no problems with these
seven transactions, the small number of sampled transactions reviewed was not
sufficient to conclude that SSA’s overall PCard Program was low risk for fraud or abuse.




2
  In 2001, the Office of Management and Budget informed SSA that Limitation on Administrative
Expenses (LAE) had been established as a separate budget account. We compared the reported LAE to
the purchase dollars in FYs 2001 and 2009. The ratio was the same for both years, 0.80 percent.
Page 3 - The Commissioner


To assess SSA’s PCard Program, we began with a general understanding of the
purchase card flow.
                                                                3
                                      Chart 2: PCard Flow

    Requester              Mgmt.                 Funds                  Request Submitted to
    Submits                Approval              Availability           MP Cardholder
    Purchase                                     Approval
    Request


    MP Reviews                     MP Makes                     Vendor                Vendor
    and Accepts                    Purchase                     Ships Items           Requests
    Request                        with PCard                                         PCard
                                                                                      Payment
                                                                                      from VISA

    Receipt and                          Purchase                         MP Reallocates
    Acceptance of                        Posted to MP’s                   Default Code to
    Items Shipped                        Government                       Chargeable CAN
                                         Bank Account                     and SOC




    By the 20th of the                     Approving Official                   Documents
    Month, MP Submits                      Reviews/Approves                     Retained for
    Statement of all                       Each Transaction                     3 Years After
    Transactions,                          and Closes                           Payment
    Posted During the                      Statement
    Cycle to the
    Approving Official




    Note:

    MP – Micro-Purchaser
    CAN – Common Accounting Number
    SOC – Sub-Object Classification



3
 The CAN is used in all accounting transactions to identify the appropriation, organization, component,
and other pertinent data. Each office/component is assigned a CAN so that expenditures can be tracked
by the component charged. SOC codes are used to identify the type of expense/obligation incurred.
Page 4 - The Commissioner


To assess SSA’s controls over its PCard Program, we obtained a data extract of all
SSA PCard transactions for FY 2007. 4 The data extract contained
164,548 transactions, totaling about $77.5 million. 5 Of the 164,548 transactions,
156,339 were less than $3,000 each. Transactions that are equal to or less than
$3,000 are considered micro-purchases. Purchases exceeding the micro-purchase
threshold must be made by warranted contracting officers. Warranted contracting
officers may choose to use their PCards for such purchases, provided such purchase is
within the contracting officer’s delegation of acquisition authority. 6 Such transactions
must be processed using purchase methods other than a Government PCard. We
examined a random sample of 50 micro-purchases to determine whether they were pre-
approved and were independently received and accepted. To determine whether these
purchases were pre-approved, we accepted as reasonable evidence various types of
documentation, such as purchase requests, and other documentation that identified
pre-approval from a responsible official.

In addition, we analyzed 50 of 646 possible split purchases, which we defined as
multiple purchase transactions—totaling over the $3,000 micro-purchase dollar
                                                                                    7
threshold—made by the same PCard holder with the same vendor on the same day.
We also examined possible duplicate transactions, the 25 smallest transactions, the
25 largest dollar transactions greater than $3,000, negative dollar transactions,
cardholders who had the highest number of transactions, and irregular merchant
category codes. See Appendix B for our Scope and Methodology and Appendix C for
our Sampling Methodology and Results.

RESULTS OF REVIEW

SSA’s oversight of its Government PCard Program needs improvement. We found that
cardholders did not comply with SSA’s policies and procedures. Our testing of PCard
transactions found that 36 (72 percent) of 50 transactions reviewed (a) did not have
adequate pre-approval documentation; (b) had no evidence that the goods were
received and accepted; and/or (c) had no documentation provided. These transactions
totaled about $8,300. In addition, for 12 (24 percent) of 50 possible split purchases we
examined, the cardholders circumvented their $3,000 single-purchase limit. These
purchases totaled about $61,000. Table 1 summarizes the results of our review.




4
    FY 2007 data were the most recent FY of data available when we started this audit.
5
    Absolute value is about $77.5 million, positive value is $76,123,894 and negative value is $1,338,483.
6
 Administrative Instructions Manual System (AIMS) 06.02.06 B.2, Acquisition Authority in the Regional
Contracting Offices indicates contacting officers are allowed to use the PCard for transactions that exceed
$3,000. Regarding the purchases of services, the micro-purchase limit is $2,500. For construction, the
micro-purchase limit is $2,000.
7
    There could be other split purchases in the population that we did not identify.
Page 5 - The Commissioner


           Table 1: Summary of Government PCard Problematic Purchases
                                                                                  Percent of
                               Number of Purchases           Problematic         Problematic
          Type of Purchase           Examined                 Purchases           Purchases
                               50 Randomly Selected
          Less Than $3,000          Transactions                  36                  72
          Possible Split       50 Purchases Identified
          Purchases               By Data Analysis                12                  24

Compliance with Policy and Procedures

Compliance with policy and procedures in the Agency’s Government PCard Program
needs improvement. Of the 50 micro-purchases reviewed, we found 36 transactions
(72 percent), totaling about $8,300, did not have

•    adequate pre-approval documentation (28 transactions); and/or

•    evidence the goods were received and accepted (8 transactions); or

•
                                                           8, 9
     any documentation provided (6 transactions).

We tested those internal controls that we considered important to prevent and detect
fraudulent, improper, and abusive PCard activity. We examined documentation to
determine whether the micro-purchases had pre-approval authorization, as required by
SSA policy. 10 As evidence of pre-approval authorization, we accepted various types of
documentation. For example, we considered micro-purchase requests and other
documentation indicating purchases were pre-approved by an appropriate official to be
adequate evidence the micro-purchases were pre-approved, as required.

Of the 50 micro-purchase transactions reviewed, 28 did not have adequate pre-
approval documentation. The PCard holder either did not prepare, or failed to maintain,
sufficient pre-approval documentation for micro-purchases. Although SSA policy
requires pre-approval and retention of documents of purchases, the cardholders did not
comply with policy and procedures.




8
 AIMS 06.16.03.C3 Policy and Guidance, cites SSA’s Micro-Purchasing Course for further information.
Part 2, Chapter 10, Section 3 of the training manual states cardholders must keep documentation for
3 years after final payment has been made on the purchase. After 3 years have passed, the files should
be destroyed.
9
  These numbers do not total 36 since some transactions had more than 1 deficiency. Specifically,
six transactions were missing documentation of pre-approval and documentation of independent receipt.
10
  AIMS 06.16.03.C3 Policy and Guidance refers to the SSA Micro-Purchasing Course, see Part II,
Chapter 6, Section 1 and 2, Chapter 10, Section 2. The cited course material states authorization to
purchase a good or service must be obtained before the purchase transaction.
Page 6 - The Commissioner


In addition, we reviewed transactions to determine whether the micro-purchases had
independent documentation of receipt and acceptance of goods, as required. 11 Of the
50 transactions reviewed, 8 did not have adequate documentation of independent
receipt and acceptance of goods. 12 As reasonable evidence of independent receipt
and acceptance, we accepted signatures or initials of someone other than the
cardholder on the sales invoice, packing slip, bill of lading, or any other shipping or
receiving document.

The Agency needs to improve its compliance with PCard policy and procedures to
ensure receipt and acceptance of goods are documented. Independent receipt and
acceptance help provide assurance that purchased items are acquired for a legitimate
Government need and not for personal use. Noncompliance increases the possibility
cardholders could make purchases for personal use rather than making the purchase
for a Government need.

Finally, six cardholders did not provide requested documentation for purchases. Of the
six cardholders, only one responded to our request and indicated documentation for the
requested transaction could not be located. SSA’s policy requires the retention of
documentation for 3 years after the final payment has been made. The lack of
appropriate documentation increases the risk the Agency’s Government PCard
Program could be subject to fraudulent, improper, or abusive activity.

Split Purchase Transactions

We analyzed $77.5 million in FY 2007 Government PCard Program transactions to
detect common characteristics among them. We found 646 potential split purchases.
Split purchases circumvent the cardholder’s single-purchase limit and avoid the
requirement to obtain competition on purchases over the $3,000 micro-purchase
threshold. The single-purchase limit was increased from $2,500 to $3,000 in
September 2006. Before 2006, the limit had been $2,500 since 1996. When a
purchase exceeds the micro-purchase dollar threshold, the component should process
the purchase through the contracting office under SSA’s procedures for competitive
purchases.

For example, we found a PCard holder submitted a purchase requisition for supplies
totaling over $5,000. The vendor acknowledged this purchase request by sending the
cardholder an email. The cardholder’s purchase log also showed the purchase for that
amount to that vendor. However, the purchase was split into three separate
transactions on the Government PCard. This action circumvented the $3,000 single
purchase limit. The cardholder should have submitted the purchase to the contracting
office for appropriate processing.

11
  AIMS 06.16.03.C3 Policy and Guidance refers to the SSA Micro-Purchasing Course, Part II,
Chapter 11, Section 1. The cited course material states independent receipt and acceptance of goods
and services is required.
12
     Of the eight transactions, six also did not have adequate pre-approval documentation.
Page 7 - The Commissioner


We examined 50 of the 646 possible split purchases and believe 12, totaling over
$61,000, were split purchases. Of the 12 purchases we identified, Agency staff
confirmed 8 purchases were split purchases based on available documentation. The
staff indicated the remaining transactions may also have been split purchases.
However, without adequate documentation, the officials explained they could not be
certain whether the transactions were split purchases. The four purchases did not have
purchase requisitions, which would indicate whether the items were purchased on the
same day. However, other documentation for these transactions showed the
purchases were made by the same purchase cardholder with the same vendor and
processed on the same day. Therefore, we believe these were split purchases. The
goods, based on the description of the item purchased, appear to be for Government
purposes.

The Agency needs to improve its management oversight of its Government PCard
Program to prevent split purchases and therefore reduce the risk of improper purchase
transactions. Contracting officers were not involved in the 12 purchases we identified.

According to staff from the Office of Acquisition and Grants, the Agency analyzed Pcard
data to identify split purchases when resources were available. Staff informed us of two
times when such data were analyzed—once in 2006 and once in 2007. Staff indicated
PCard data for 2009 are also being analyzed for potential split purchases. Office of
Acquisition and Grants staff plan to conduct these reviews monthly.

CONCLUSION AND RECOMMENDATIONS

SSA’s oversight of its Government PCard Program needs improvement. We found
cardholders did not comply with SSA’s policies and procedures. Based on our review
of micro-purchase card transactions, we found cardholders either did not prepare or
failed to maintain, adequate documentation, as required, for 36 of the 50 transactions
examined. In addition, we found 12 of 50 transactions we examined were split
purchases. Noncompliance with policy and procedures increases the possibility of
fraudulent, abusive, or improper purchase card activity.

We recommend that SSA:

1. Ensure cardholders comply with SSA policy and procedures on obtaining and
   maintaining adequate pre-approval documentation.

2. Remind cardholders to comply with SSA policy and procedures on obtaining and
   maintaining adequate receipt and acceptance of goods documentation.

3. Instruct cardholders to comply with SSA policy and procedures to prevent making
   split purchases.

4. Analyze Pcard data routinely to identify possible split purchases and take steps to
   ensure cardholders follow Agency policy.
Page 8 - The Commissioner


AGENCY COMMENTS
The Agency agreed with our recommendations (see Appendix D).




                                           Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology and Results
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                    Appendix A

Acronyms
AIMS    Administrative Instructions Manual System
CAN     Common Accounting Number
FY      Fiscal Year
GAO     Government Accountability Office
GSA     General Services Administration
LAE     Limitation on Administrative Expenses
MP      Micro-Purchaser
PCard   Purchase Card
SOC     Sub-Object Classification
SSA     Social Security Administration
                                                                                 Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed applicable Federal laws and sections of the Social Security
    Administration’s (SSA) regulations, policies, and procedures.

•   Identified and reviewed prior relevant audits.

•   Corresponded with SSA officials familiar with the Agency’s Government Purchase
    Card (PCard) Program and Agency personnel who were PCard holders.

•   Obtained a data extract of all PCard transactions for Fiscal Year 2007. The data
    extract included 164,548 transactions, totaling about $77.5 million. Of the
    164,548 transactions, 156,339 were less than $3,000 each. These transactions are
    considered micro-purchases. Based on our analysis of this data file, we:

         Randomly selected 50 of the 156,339 micro-purchases to determine whether
          SSA complied with its policies and procedures for the approval and receipt of
          purchases. We determined whether the transactions were pre-approved and
          were independently received and accepted. For pre-approval authorization,
          we accepted as reasonable evidence various types of documentation, such
          as purchase requests and other documentation that identified pre-approval
          from a responsible official.

         Randomly selected 50 of the 646 items (2,074 separate transactions) we
          believed were possible split purchases. 1

         Randomly selected 30 possible duplicate purchases.

         Reviewed the 25 lowest dollar transactions.

         Reviewed the 25 highest dollar transactions greater than $3,000.

         Reviewed the 25 largest negative dollar transactions.

         Analyzed 10 cardholders who had the highest number of transactions and
          10 cardholders who had the highest dollar amounts.


1
 We defined split purchases as multiple purchase transactions, totaling over the $3,000 micro-purchase
dollar threshold, made by the same purchase cardholder with the same vendor on the same day.


                                                  B-1
            Reviewed unusual merchant category codes and frequently used merchant
             category codes. 2

We determined the computer-processed data used for this audit were sufficiently
reliable for their intended use. Further, any data limitations were minor in the context of
this assignment, and the use of the data should not lead to an incorrect or unintentional
conclusion. The electronic data used in our audit were primarily extracted from the
CitiDirect Card Management System. Nothing came to our attention that indicated the
PCard transactions we reviewed involved fraud or abuse.

We performed our review at SSA Headquarters in Baltimore, Maryland, from January
through September 2009. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




2
 Depending on the goods or services sold, each type of merchant is assigned a specific category code.
For example, merchants that sell furniture are assigned the merchant code “5712.”


                                                  B-2
                                                                      Appendix C

Sampling Methodology and Results
We obtained a data extract of purchase card transactions for Fiscal Year 2007. The
data extract contained a total of 164,548 transactions totaling $77.5 million. Of the
164,548, we analyzed:

    50 randomly selected from 156,339 transactions that were less than $3,000 each.
    We tested these transactions to ensure the purchases had pre-approved
    authorization and were independently received and accepted.

    50 randomly selected from 646 possible split purchase transactions. We defined
    split purchases as multiple purchase transactions, totaling over the $3,000 micro-
    purchase threshold, made by the same cardholder with the same vendor on the
    same day.

    30 possible duplicate transactions.

    25 smallest dollar transactions.

    25 largest dollar transactions greater than $3,000 each.

    25 largest negative dollar transactions (credits).




                                             C-1
                Table C-1: FY 2007 Government Purchase Card Transactions

                                                                                          Percent
                                          Sample                    Population  Number      of      Amount
                                                                            1 2
       Type of Purchase        Sample     Amount   Population      Amount ,     of Errors Sample    of Errors
1.   $0 - $3,000                 50        $19,294 156,339         $56,713,189     36       72       $8,312
                                                            3
2.   Split Purchases             50       $412,258   2,074          $5,412,950     12       24      $61,310
3.   Duplicates                  30        $20,501      314            $29,152      0        0         $0
4.   Transactions with
     Smallest Dollar             25           $1.26          25           $1.26      0       0          $0
     Amount
5.   Transactions with
     Highest Dollar Amount       25      $2,264,635      1,005     $13,968,601       0       0          $0
     > $3,000
6.   Transactions with
                                                                                         4
     Largest Negative            25       $326,872       4,791      $1,338,483       0       0          $0
     Dollar Amount
             Total               205     $3,043,561    164,548     $77,462,376       48             $69,622




1
  The total population of purchase card transactions for FY 2007 was about $78.9 million. This is the
absolute value of the transactions, and includes Office of the Inspector General purchase card
transactions. The population used for our review did not include Office of the Inspector General
transactions.
2
 With one exception, the amounts have been rounded. Amount identified for “Transactions with Smallest
Dollar Amount” is actual value.
3
    There were 646 possible split purchases that totaled 2,074 transaction line items.
4
 No documentation was provided for 6 transactions; therefore, we do not know whether an error occurred;
however, 19 transactions had satisfactory documentation.


                                                      C-2
                  Appendix D

Agency Comments
                                       SOCIAL SECURITY
MEMORANDUM



Date:      March 11, 2010                                                    Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Executive Counselor
           to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, “The Social Security
           Administration’s Government Purchase Card Program” (A-13-09-29027)--
           INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We
           appreciate OIG’s efforts in conducting this review. Attached is our response to the
           report recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment




                                                      D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “THE SOCIAL SECURITY ADMINISTRATION’S (SSA) GOVERNMENT
PURCHASE CARD PROGRAM” (A-13-09-29027)

We reviewed the draft report and our responses to the specific recommendations
follow.

Recommendation 1

Ensure cardholders comply with SSA policy and procedures on preparing and
maintaining adequate pre-approval documentation.

Comment

We agree. We will issue an Acquisition Alert reminding micro-purchasers and
approving officials of their obligation to obtain and maintain the appropriate pre-
approval documentation in micro-purchaser’s files. Additionally, we will require this
documentation during all of our Acquisition Management Reviews (AMR), where we
review a micro-purchaser’s acquisition activities to ensure compliance with acquisition
rules, regulations, and policies. We conduct AMRs throughout the year. Our reviews
may involve analyzing a micro-purchaser’s activity over a certain time or a specific
questionable transaction we identify in the CitiDirect system.

Recommendation 2

Remind cardholders to comply with SSA policy and procedures on preparing and
maintaining adequate receipt and acceptance of goods documentation.

Comment

We agree. We will remind micro-purchasers and approving officials in our Acquisition
Alert of their obligation to obtain and maintain adequate documentation of independent
receipt and acceptance of goods in the micro-purchaser’s files. Additionally, we will
require this documentation during all of our AMRs.

Recommendation 3

Instruct cardholders to comply with SSA policy and procedures to prevent making split
purchases.

Comment

We agree. In our Acquisition Alert, we will remind micro-purchasers and approving
officials about their responsibility to: 1) reject any obvious split purchase; 2) refuse to
conduct a split purchase; and 3) use due diligence to detect potential split purchases.



                                             D-2
Recommendation 4

Analyze PCard (Government Purchase Card) data routinely to identify possible split
purchases and take steps to ensure cardholders follow Agency policy.

Comment

We agree. We conduct reviews of possible split purchases and intend to continue this
practice. When we discover a split purchase, we analyze the circumstances and take
appropriate action. This action may include a warning to the micro-purchaser and
approving official not to split purchases in the future or, if appropriate, suspension or
revocation of the employee’s micro-purchasing or approving authority. Repeated failure
to follow our split purchase policy and procedures may result in administrative or
disciplinary action.

In addition, we are exploring a new Citibank tool to conduct these reviews in less time
and with greater efficiency.




                                           D-3
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley Todd, Director, Evaluation Division

   Randy Townsley, Audit Manager

Acknowledgments

In addition to those named above:

   Alan Carr, Auditor-in-Charge

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-13-09-29027
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
